Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  OVERSIGHT OF PRESCRIPTION
    DRUG PLAN SPONSORS’
     COMPLIANCE PLANS




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                     OEI-03-08-00230
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                        S U M M A R Y


                  OBJECTIVE
                  To determine what oversight the Centers for Medicare & Medicaid
                  Services (CMS) has conducted of prescription drug plan (PDP) sponsors’
                  compliance plans.


                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 established Medicare Part D to provide prescription drug
                  benefits under the Medicare program beginning January 1, 2006.
                  Part D prescription drug coverage is provided by private entities known
                  as plan sponsors.

                  An effective compliance plan helps PDP sponsors protect the integrity of
                  Medicare funds by preventing and detecting fraud, waste, and abuse.
                  Federal regulations in effect since March 22, 2005, require that PDP
                  sponsors have compliance plans in place and that these compliance
                  plans address eight elements. Chapter 9 of CMS’s “Prescription Drug
                  Benefit Manual” includes the eight elements as well as additional
                  requirements and recommendations for addressing each of these
                  elements.

                  The Office of Inspector General (OIG) released a report on PDP
                  sponsors’ compliance plans in December 2006 that found that most
                  sponsors’ compliance plans did not address all of the CMS requirements
                  or recommendations. In comments on the report, CMS stated that
                  account managers would follow up with PDP sponsors regarding
                  deficiencies in their compliance plans. CMS also stated that it would
                  conduct routine audits of PDP sponsors’ compliance plans beginning in
                  January 2007. Routine audits are scheduled audits conducted to ensure
                  compliance with program requirements. CMS can also conduct focused
                  audits outside the routine audit process to confirm the correction of
                  previously identified deficiencies.

                  We collected documentation and interviewed CMS staff regarding their
                  oversight activities related to PDP sponsors’ compliance plans. Data
                  collection was conducted in April and May 2008.




OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   i
E X E C U T I V E                   S U     M M A R Y




                   FINDINGS
                   CMS conducted one audit of a PDP sponsor’s compliance plan in
                   2007. CMS conducted 17 routine audits and 2 focused audits of PDP
                   sponsors in 2007. However, CMS did not include a compliance plan
                   review in any of the 17 routine audits conducted. One of the two
                   focused audits included a review of one PDP sponsor’s compliance plan.
                   The audit found that the sponsor did not have a comprehensive plan to
                   detect, correct, and prevent fraud, waste, and abuse.
                   In April 2008, CMS reported that it plans to begin specific audits of
                   compliance plans in the summer of 2008. However, as of early August
                   2008, CMS had not yet conducted any specific audits of PDP sponsors’
                   compliance plans.
                   PDP sponsors completed a compliance plan self-assessment but
                   CMS did not verify sponsors’ responses. In response to OIG’s
                   December 2006 report, CMS instructed all 91 PDP sponsors to complete
                   a compliance plan self-assessment in June 2007. The self-assessment
                   was based on Chapter 9 of the “Prescription Drug Benefit Manual”;
                   however, CMS did not include all requirements from Chapter 9 in the
                   self-assessment. In addition, CMS did not request documentation to
                   support sponsors’ responses to the self-assessment.

                   Twenty-three of the ninety-one PDP sponsors attested in June 2007
                   that they had not implemented 1 or more of 11 compliance plan
                   requirements included in the self-assessment. In April 2008, CMS had
                   account managers follow up with these 23 PDP sponsors. Based on this
                   followup, only one sponsor reported that it was not meeting all of the
                   requirements included in the self-assessment. However, CMS did not
                   instruct account managers to request supporting documentation to
                   confirm that PDP sponsors made corrections to their compliance plans.


                   RECOMMENDATION
                   Effective compliance plans are a fundamental tool in preventing and
                   detecting fraud, waste, and abuse in the Part D program. Although
                   CMS originally planned to begin routine compliance plan audits in
                   January 2007, as of early August 2008, CMS had not conducted any
                   routine audits of PDP sponsors’ compliance plans. In addition, while
                   CMS instructed all PDP sponsors to complete a compliance plan


 OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS     ii
E X E C U T I V E                    S U     M M A R Y



                  self-assessment, the self-assessment did not include all requirements
                  from Chapter 9 of the “Prescription Drug Benefit Manual.” Also, CMS
                  did not ensure that PDP sponsors’ attestations were accurate by
                  independently verifying their responses. Therefore, CMS has only
                  self-reported information to determine whether PDP sponsors’
                  compliance plans are meeting Federal requirements.

                  Therefore, we recommend that CMS:
                  Conduct audits to verify that PDP sponsors’ compliance plans meet
                  requirements. CMS should conduct routine audits of PDP sponsors’
                  compliance plans to ensure that these compliance plans meet all
                  Federal requirements. Specifically, these audits should cover all
                  compliance plan requirements contained in regulations as well as
                  requirements included in Chapter 9 of the “Prescription Drug Benefit
                  Manual.” CMS may also want to assess the degree to which PDP
                  sponsors have implemented the recommendations described in
                  Chapter 9.


                  AGENCY COMMENTS
                  CMS concurred with our recommendation that it should conduct audits
                  of PDP sponsors’ compliance plans. CMS noted that due to critical
                  funding shortfalls, it was not able to conduct compliance plan audits
                  prior to the issuance of this report. However, CMS stated that it will
                  begin audits of sponsors’ compliance plans in the near future. These
                  audits will consist of a limited number of desk audits; however, as more
                  resources become available, CMS stated that it will include more audits,
                  onsite reviews, and other more comprehensive fraud prevention
                  activities.




OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   iii
Δ   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 7
                    CMS conducted one audit of a PDP sponsor’s compliance plan. . . . 7

                    CMS did not verify PDP sponsors’ self-assessment responses . . . . 7



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine what oversight the Centers for Medicare & Medicaid
                  Services (CMS) has conducted of prescription drug plan (PDP) sponsors’
                  compliance plans.


                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 established Medicare Part D to provide prescription drug
                  benefits under the Medicare program beginning January 1, 2006. 1
                  Part D prescription drug coverage is provided by private entities
                  known as plan sponsors. Plans offered by sponsors include PDPs and
                  Medicare Advantage prescription drug plans (MA-PD) that offer
                  integrated coverage for both prescription drugs and other health care.
                  As of August 2008, 26 million beneficiaries were enrolled in a Part D
                  plan. Two-thirds of these beneficiaries were enrolled in a PDP. 2
                  Medicare expenditures for Part D benefits were approximately
                  $49.5 billion in 2007. 3
                  Compliance Plan Requirements
                  An effective compliance plan helps PDP sponsors protect the integrity of
                  Medicare funds by preventing and detecting fraud, waste, and abuse.
                  Federal regulations in effect since March 22, 2005, require that PDP
                  sponsors have compliance plans in place and that these compliance
                  plans address eight elements. 4 The eight elements PDP sponsors’
                  compliance plans must contain are:

                  (1)    written policies, procedures, and standards of conduct articulating
                         the organization’s commitment to comply with all applicable
                         Federal and State standards;

                  (2)    the designation of a compliance officer and compliance committee
                         accountable to senior management;


                    1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,

                  P.L. No. 108-173, Social Security Act § 1860D-1(a), 42 U.S.C. § 1395w-101(a).
                    2 CMS, “Monthly Contract Summary Report,” August 2008. Available online at
                  http://www.cms.hhs.gov/MCRAdvPartDEnrolData/MCESR. Accessed on August 28, 2008.
                    3 The Boards of Trustees of the Federal Hospital Insurance and Federal Supplementary
                  Medical Insurance Trust Funds, “2008 Annual Report,” p. 111, March 2008. Available
                  online at http://www.cms.hhs.gov/ReportsTrustFunds/downloads/tr2008.pdf. Accessed on
                  April 22, 2008.
                    4 42 CFR § 423.504(b)(4)(vi).




OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                       1
I N T R O D       U C T            I O N


                  (3)   effective training and education between the compliance officer
                        and organization employees, contractors, agents, and directors;

                  (4)   effective lines of communication between the compliance officer
                        and the organization’s employees, contractors, agents, directors,
                        and members of the compliance committee;

                  (5)   enforcement of standards through well-publicized disciplinary
                        guidelines;

                  (6)   procedures for effective internal monitoring and auditing;

                  (7)   procedures for ensuring prompt responses to detected offenses and
                        development of corrective action initiatives relating to the
                        organization’s contract as a Part D plan sponsor; and

                  (8)   a comprehensive fraud and abuse plan to detect, correct, and
                        prevent fraud, waste, and abuse. This fraud and abuse plan
                        should include procedures to voluntarily self-report potential fraud
                        or misconduct related to the Part D program to the appropriate
                        Government authority.

                  In December 2007, CMS issued a final rule that revises Federal
                  regulations and clarifies that the elements relating to training and
                  education and effective lines of communication must include PDP
                  sponsors’ first tier, downstream, and related entities (e.g., contractors).
                  In addition, this final rule removes the eighth compliance plan element
                  regarding a fraud and abuse plan effective January 1, 2009. 5 Although
                  this element is being removed, CMS has added language to the
                  regulation which specifies that PDP sponsors’ compliance plans must
                  include measures to detect, correct, and prevent fraud, waste, and
                  abuse. Also, CMS is working on additional regulatory changes to make
                  self-reporting of potential fraud or misconduct mandatory rather than
                  voluntary. 6
                  Chapter 9 of CMS’s “Prescription Drug Benefit Manual” includes
                  additional requirements and recommendations for addressing each of
                  the required compliance plan elements. 7 CMS is currently updating


                    5 72 Fed. Reg. 68700, 68705 (Dec. 5, 2007).
                    6 72 Fed. Reg. 68700 (Dec. 5, 2007).
                    7 CMS, “Prescription Drug Benefit Manual,” Rev. 2, April 25, 2006, ch. 9, § 50.1.
                  Available online at
                  http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDBManual_Chapter9_F
                  WA.pdf. Accessed on January 18, 2008.



OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                    2
I N T R O D        U C T        I O N


                    Chapter 9 in response to the recent regulatory changes and will publish
                    the revised chapter when all of the additional changes are finalized.
                    Oversight Strategy
                    Audit procedures. CMS uses audits as part of its oversight strategy to
                    ensure compliance with program requirements. In November 2006,
                    CMS issued a memorandum outlining its plans for auditing Part D
                    sponsors. 8 CMS stated in this memorandum that it would conduct
                    regularly scheduled (i.e., routine) program audits of PDP sponsors using
                    selected chapters of the “Prescription Drug Plan Sponsor Part D Audit
                    Guide” (hereafter referred to as the “Audit Guide”). For these audits,
                    CMS requires PDP sponsors to provide supporting documentation to
                    demonstrate their compliance with Federal requirements.

                    The Audit Guide contains 14 chapters corresponding to various program
                    areas, such as enrollment and disenrollment, claims processing, and
                    compliance plans. Each chapter has individual components that can be
                    reviewed. Chapter 10 of the Audit Guide covers compliance plans and
                    includes components that correspond with the eight required
                    compliance plan elements. 9 For example, one component states that
                    PDP sponsors’ compliance plans must include a comprehensive plan to
                    detect, correct, and prevent fraud, waste, and abuse.

                    CMS can also conduct focused audits to confirm the correction of
                    previously identified deficiencies or in response to indications of
                    noncompliance. Focused audits are conducted outside of the routine
                    audit process.

                    Request for PDP self-assessment. As part of its activities to monitor the
                    implementation of the Part D program, CMS instructed PDP sponsors
                    to complete a self-assessment regarding their compliance plans in
                    June 2007. 10 CMS indicated that it would use this self-assessment to
                    determine the extent to which PDP sponsors had implemented the



                      8 CMS, “Final MA-PD and PDP Part D Audit Guides for Part D Program Audits,”
                    November 13, 2006. Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/MemoAuditGuides.pdf.
                    Accessed on January 24, 2008.
                      9 CMS, “Medicare Prescription Drug Plan Sponsor Part D Audit Guide,” Version 1.0,
                    April 10, 2006. Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDPAuditGuide.pdf.
                    Accessed on January 18, 2008.
                      10 CMS, “Compliance Plan Best Practices Self-Assessment Tool,” June 11, 2007.




 OEI-03-08-00230    OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                    3
I N T R O D        U C T        I O N


                    requirements and recommendations outlined in Chapter 9 of the
                    “Prescription Drug Benefit Manual.”

                    Account managers. Account managers within CMS perform the
                    day-to-day oversight of PDP sponsors. Account managers serve as the
                    primary point of contact for PDP sponsors and ensure PDP sponsors’
                    compliance with program rules and guidance. Account managers also
                    coordinate all audits of PDP sponsors.

                    Medicare Drug Integrity Contractors. Medicare Drug Integrity
                    Contractors (MEDIC) are responsible for many Part D oversight
                    activities. According to the MEDICs’ umbrella statement of work, their
                    responsibilities may include analyzing claims and other data,
                    investigating complaints, and reviewing the fraud and abuse
                    components of PDP sponsors’ compliance plans. 11 CMS issues
                    individual task orders to define the specific responsibilities of MEDICs.
                    CMS has contracted with three companies to serve as MEDICs.
                    MEDICs’ early efforts focused on processing complaints regarding Part
                    D fraud, waste, and abuse.
                    Previous Office of Inspector General Work
                    In December 2006, the Office of Inspector General (OIG) issued a report
                    entitled “Prescription Drug Plan Sponsors’ Compliance Plans”
                    (OEI-03-06-00100). 12 The report found that most PDP sponsors’
                    compliance plans did not address all of the CMS requirements or
                    recommendations. For example, 71 of 79 PDP sponsors’ compliance
                    plans reviewed did not address all requirements related to internal
                    monitoring and auditing. OIG recommended that CMS take steps to
                    ensure that PDP sponsors’ compliance plans address all requirements.
                    In its comments on the report, CMS stated that account managers
                    would follow up with the PDP sponsors identified in the report
                    regarding deficiencies in their compliance plans. In addition, CMS
                    stated that in January 2007, it would begin routine audits that would
                    include PDP sponsors’ compliance plans.




                      11 CMS, “MEDIC Statement of Work,” § 3.2, Rev. 1, January 3, 2006.
                      12 OIG, “Prescription Drug Plan Sponsors’ Compliance Plans,” OEI-03-06-00100,
                    December 2006. Available online at http://oig.hhs.gov/oei/reports/oei-03-06-00100.pdf.
                    Accessed on March 11, 2008.



 OEI-03-08-00230    OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                       4
I N T R O D        U C T        I O N



                    METHODOLOGY
                    Data Collection and Analysis
                    We collected documentation and interviewed CMS staff regarding the
                    following oversight activities:

                    • all audits of PDP sponsors conducted between January 1, 2007, and
                      March 31, 2008;

                    • any planned audits of PDP sponsors’ compliance plans scheduled for
                      2008;

                    • PDP sponsors’ self-assessment of their compliance plans and any steps
                      taken to address deficiencies;

                    • CMS’s followup with PDP sponsors regarding the findings of OIG’s
                      December 2006 report; and

                    • any other oversight conducted to ensure that PDP sponsors’
                      compliance plans meet Federal requirements.

                    We collected this information from CMS officials with responsibility for
                    oversight of PDP sponsors’ compliance plans. CMS respondents
                    included representatives from the Center for Beneficiary Choices’
                    Medicare Drug Benefit Group and Plan Oversight and Accountability
                    Group as well as the Office of Financial Management’s Program
                    Integrity Group. Data collection was conducted in April and May 2008.

                    We reviewed CMS staff responses to our interview questions to
                    determine what oversight has been conducted or planned regarding
                    PDP sponsors’ compliance plans. In addition, CMS provided data on
                    audits of PDP sponsors conducted in 2007. We analyzed the data to
                    determine the number and types of audits conducted and whether any
                    audits included a review of compliance plans. CMS did not provide data
                    on audits conducted between January and March 2008 because no PDP
                    sponsors were audited during this time.

                    CMS also provided data on the results of the June 2007 self-assessment
                    and the followup to the self-assessment conducted by account managers
                    in April 2008. We reviewed these results to determine which
                    compliance plan requirements PDP sponsors reported that they had not
                    implemented and what steps were taken to address compliance plan
                    deficiencies. In addition, we reviewed Chapter 9 of the “Prescription
                    Drug Benefit Manual” and the self-assessment to determine which
                    requirements were included in both documents.


 OEI-03-08-00230    OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   5
I N T R O D        U C T        I O N




                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-08-00230    OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   6
F   I N D I N G        S
Δ       F I N D I N G S

           CMS conducted one audit of a PDP             CMS reported that it would begin
           sponsor’s compliance plan in 2007            routine audits of PDP sponsors in
                                                        January 2007 that would assess the
                      effectiveness of sponsors’ compliance plans. CMS conducted 19 audits of
                      PDP sponsors in 2007: 17 routine audits and 2 focused audits. CMS did
                      not include a compliance plan review in any of the 17 routine audits.
                      One of the two focused audits included a review of one PDP sponsor’s
                      compliance plan. This focused audit was of a PDP sponsor that had
                      deficiencies in several other program areas. The audit reviewed the
                      PDP sponsor’s compliance plan for one required component and found
                      that the sponsor did not have a comprehensive plan to detect, correct,
                      and prevent fraud, waste, and abuse.
                      In April 2008, CMS staff reported that they plan to have the MEDICs
                      conduct specific audits of compliance plans. CMS originally intended to
                      have the MEDICs start the compliance plan audits in the fall of 2007;
                      however, CMS did not begin the audits at that time because of budget
                      constraints. CMS reported that the MEDICs would begin conducting
                      these compliance plan audits in the summer of 2008. However, as of
                      early August 2008, the MEDICs had not yet audited any PDP sponsors’
                      compliance plans.



PDP sponsors completed a compliance plan                 In response to OIG’s December 2006
         self-assessment but CMS did not                 report, CMS stated that it would
                                                         have account managers follow up
               verify sponsors’ responses
                                                         with sponsors identified in the report
                      to ensure that sponsors corrected their compliance plan deficiencies.
                      CMS staff reported in April 2008 that, rather than follow up specifically
                      with PDP sponsors identified in OIG’s report, they had requested all
                      PDP sponsors to complete a compliance plan self-assessment. The
                      self-assessment was the only followup conducted by CMS in response to
                      OIG’s report.
                      CMS developed the self-assessment and sent it to all 91 PDP sponsors
                      in June 2007. All 91 PDP sponsors completed the self-assessment. The
                      self-assessment included 50 questions, 11 regarding required
                      compliance plan items and 39 regarding recommended items. CMS did
                      not request that PDP sponsors submit documentation to verify their
                      responses.
                      Results of self-assessment. Twenty-five percent of PDP sponsors
                      (23 of 91) attested that they did not implement 1 or more of the

    OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS    7
F   I N D I N G        S


                      11 requirements included in the self-assessment. For example,
                      14 percent of PDP sponsors (13 of 91) attested that they did not have
                      documented procedures for internal monitoring and auditing of their
                      Part D compliance programs. Nine percent (8 of 91) attested that they
                      did not provide training and education between the compliance officer
                      and employees, contractors, subcontractors, agents, and directors. Five
                      percent of PDP sponsors (5 of 91) attested that they did not have a
                      documented comprehensive plan to detect, correct, and prevent Part D
                      fraud, waste, and abuse.

                      The other 39 questions in the self-assessment pertained to
                      recommendations, according to CMS. While not required by regulation,
                      CMS drafted these recommendations to assist PDP sponsors in
                      implementing an effective compliance plan. For example, CMS
                      recommends that PDP sponsors have a process in place to identify
                      claims for drugs prescribed by excluded or deceased providers and a
                      process to report and properly repay any overpayments. However,
                      45 percent of PDP sponsors (41 of 91) attested that their plans for
                      preventing fraud, waste, and abuse did not include such processes.
                      CMS also recommends that PDP sponsors distribute their code of
                      conduct to first tier, downstream, and related entities. However,
                      52 percent (47 of 91) attested that they did not do so.
                      Self-assessment did not include all compliance plan requirements. CMS
                      stated that the self-assessment was based on Chapter 9 of the
                      “Prescription Drug Benefit Manual.” Chapter 9 includes the eight
                      regulatory compliance plan elements as well as additional requirements
                      and recommendations for addressing these elements. Chapter 9 states
                      that statutory or regulatory program requirements are reflected by use
                      of the terms “must” or “shall.” CMS’s self-assessment included
                      11 requirements. However, our review of Chapter 9 identified an
                      additional 12 items that were referred to using the words “must,”
                      “shall,” or, in one case, “will” that were not included in the
                      self-assessment as requirements. Six of these twelve items were
                      included in the self-assessment as recommendations, but the remaining
                      six were not included as part of the self-assessment. For example, the
                      Chapter 9 requirement that a PDP sponsor “must ensure the Part D
                      Compliance Officer does not hold other responsibilities that could lead




    OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   8
F   I N D I N G        S


                      to self-policing of his/her activities” 13 was not included in the
                      self-assessment.
                      CMS followed up with 23 PDP sponsors but did not request documentation
                      to ensure that sponsors corrected deficiencies identified through the
                      self-assessment
                      In April 2008, CMS asked account managers to follow up with
                      23 PDP sponsors regarding the June 2007 self-assessment. These
                      23 PDP sponsors attested in June 2007 that they had not implemented
                      1 or more of 11 compliance plan requirements included in the
                      self-assessment.
                      As followup, CMS asked the 23 PDP sponsors whether they had come
                      into compliance since responding to the self-assessment, or whether
                      they misunderstood a question and had actually been in compliance
                      from the beginning. All 23 PDP sponsors responded to CMS’s request
                      for follow-up information.

                      We reviewed a summary of the 23 PDP sponsors’ follow-up responses to
                      CMS’s request regarding the implementation of the compliance plan
                      requirements. Based on CMS’s followup, only one sponsor reported that
                      it was not meeting all of the requirements included in the
                      self-assessment. However, CMS did not instruct account managers to
                      request supporting documentation to confirm that PDP sponsors made
                      corrections to their compliance plans.

                      In addition, CMS did not follow up with PDP sponsors that attested that
                      they had not implemented one or more of the recommended items
                      included in the self-assessment. This included six items that were
                      requirements in Chapter 9 of the “Prescription Drug Benefit Manual”
                      but were considered recommended items in the self-assessment.




                        13 CMS, “Prescription Drug Benefit Manual,” Rev. 2, April 25, 2006, ch. 9, § 50.2.2.1.
                      Available online at
                      http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDBManual_Chapter9_F
                      WA.pdf. Accessed on January 18, 2008.



    OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                         9
F IAF NNI DNN IDE NIR GN SG2 S
B                            N D           P A G E
Δ     R E C O M M E N D A T I O N S




                      Effective compliance plans are a fundamental tool in preventing and
                      detecting fraud, waste, and abuse in the Part D program. OIG’s
                      December 2006 report on PDP sponsors’ compliance plans found that
                      many PDP sponsors’ compliance plans did not meet all of the
                      requirements. In response to that report, CMS indicated that it would
                      conduct routine audits of PDP sponsors’ compliance plans and have
                      account managers follow up with PDP sponsors identified in the report
                      as having compliance plan deficiencies.

                      Although CMS originally planned to begin routine compliance plan
                      audits in January 2007, as of early August 2008, CMS had not
                      conducted any routine audits of PDP sponsors’ compliance plans. In
                      addition, while CMS instructed all PDP sponsors to complete a
                      compliance plan self-assessment, the self-assessment did not include all
                      requirements from Chapter 9 of the “Prescription Drug Benefit
                      Manual.” Also, CMS did not ensure that PDP sponsors’ attestations
                      were accurate by independently verifying their responses. Therefore,
                      CMS has only self-reported information to determine whether PDP
                      sponsors’ compliance plans are meeting Federal requirements.

                      Therefore, we recommend that CMS:
                      Conduct Audits To Verify That PDP Sponsors’ Compliance Plans Meet
                      Requirements
                      CMS should conduct routine audits of PDP sponsors’ compliance plans
                      to ensure that these compliance plans meet all Federal requirements.
                      Specifically, these audits should cover all compliance plan requirements
                      contained in regulations as well as requirements included in Chapter 9
                      of the “Prescription Drug Benefit Manual.” CMS may also want to
                      assess the degree to which PDP sponsors have implemented the
                      recommendations described in Chapter 9.




                      AGENCY COMMENTS
                      CMS concurred with our recommendation that it should conduct audits
                      of PDP sponsors’ compliance plans. CMS noted that due to critical
                      funding shortfalls, it was not able to conduct compliance plan audits
                      prior to the issuance of this report. However, CMS stated that it will
                      begin audits of sponsors’ compliance plans in the near future. These


  OEI-03-08-00230     OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   10
R   E C O        M M E N D A T               I O N



                      audits will consist of a limited number of desk audits; however, as more
                      resources become available, CMS stated that it will include more audits,
                      onsite reviews, and other more comprehensive fraud prevention
                      activities. The full text of CMS’s comments are included in the
                      Appendix.




    OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   11
Δ      A P P E N D I X

     Agency Comments




OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   12
A P P E N D        I X




 OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   13
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Tara J. Bernabe served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Nancy J. Molyneaux; central office staff who contributed include
                  Rita Wurm.




OEI-03-08-00230   OVERSIGHT   OF   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS   14
